UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-1944

Antonio E. Wills
Movant - Appellant
v.
United States of America
Respondent - Appellee
Appeal from U.S. District Court for the Western District of Missouri - Kansas City
(4:19-cv-01043-RK)
JUDGMENT

Before COLLOTON, GRUENDER, and ERICKSON, Circuit Judges.

This appeal comes before the court on appellant's application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the
application for a certificate of appealability is denied. The appeal is dismissed.
September 15, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appellate Case: 20-1944

Page: 1

Date Filed: 09/15/2020 Entry ID: 4956005

UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF MISSOURI
WESTERN DIVISION
ANTONIO E. WILLS,
Movant,
vs.

UNITED STATES OF AMERICA,
Respondent.

)
)
)
)
)
)
)
)
)

Case No. 19-01043-CV-W-RK-P
Crim.No. 16-00104-01-CR-W-RK

ORDER DENYING MOVANT’S MOTION UNDER 28 U.S.C. S 2255. DENYING A
CERTIFICATE OF APPEALABILITY. AND DISMISSING CASE
Movant, who is incarcerated at the USP Leavenworth in Leavenworth, Kansas, pursuant to a
conviction and sentence entered in the above-cited criminal case, has filed a pro se motion to vacate,
set aside, or correct sentence pursuant to 28 U.S.C. § 2255. Doc. 1. Respondent argues that Movant’s
grounds for relief are either not cognizable or are without merit. Doc. 4. Although this case was
dismissed without prejudice due to Movant’s failure to file a reply as ordered, Movant has since filed
what appears to be his reply. Docs. 6, 8. As a result, this case will be reopened for purposes of this
Order. Nevertheless, because this Court finds that the motion, files, and record show that Movant is
not entitled to relief,1 Movant’s motion is denied, a certificate of appealability is denied, and this case
is dismissed.
I. Background
On November 2, 2016, a superseding indictment was returned charging Movant with the
following: possession with intent to distribute cocaine base, in violation of 21 U.S.C. § 841(a)(1) and
(b)(1)(C) (Count One); possessing a firearm in furtherance of a drug trafficking crime, in violation of
18 U.S.C. § 924(c)(1) (Count Two); and felon in possession of a firearm, in violation of 18 U.S.C.
§§ 922(g)(1) and 924(a)(2) (Count Three). Crim. Doc. 29.2 The Government filed an information,
1 «

A Section 2255 movant is entitled to an evidentiary hearing . . . unless the motion, files, and record conclusively
show he is not entitled to relief. Roundtree v. United States, 751 F.3d 923, 925 (8th Cir. 2014) (citation and internal
quotation omitted).
2 “Crim. Doc.” refers to the docket number entries in Movant’s criminal case, Case No . 16-00104-01-CR-W-RK.
“Doc.” refers to the docket number entries in Movant’s associated civil case, Case No 19-01043-CV-W-RK-P. Page
number citations refer to the page numbers assigned by the CM/ECF electronic docketing system.

Case 4:19-cv-01043-RK Document 9 Filed 03/16/20 Page 1 of 6

alleging that Movant had a prior felony drug conviction for possession with intent to distribute crack
cocaine in the United States District Court for the District of Kansas. Crim. Doc. 58. As a result of
the prior conviction, the statutory range of punishment on Count One became not more than 30 years’
imprisonment. Id.
Movant appeared before this Court on February 9, 2018, and pleaded guilty to Counts One and
Three pursuant to a plea agreement. Crim. Docs. 63, 64. The plea agreement contained a factual basis
for the guilty plea and an agreement that this Court would determine the applicable Sentencing
Guidelines range at sentencing, utilizing a preponderance of the evidence standard. Crim. Doc. 63, pp.
2, 4, 8. The parties stipulated to a base offense level of 34 and a criminal history category of VI. Id.
at 7.

At the change-of-plea hearing, Movant acknowledged understanding the procedure for

calculating the Sentencing Guidelines, and the parties agreed that they had discussed the probability
that Movant would be considered a career offender. Crim. Doc. 80, pp. 12-16, 26-27.
A Presentence Investigation Report (“PSR”) was issued on May 2, 2018, which contained a
recitation of the offense conduct and found that Movant was a career offender under U.S.S.G. § 4B1.1
because he had two prior convictions for distributing a controlled substance. Crim. Doc. 67, pp. 7-8 .
The PSR cited a conviction for possession with intent to distribute a controlled substance in the Circuit
Court of Buchanan County Missouri, Case No. CR694-190FX and a conviction for possession with
intent to distribute cocaine base in the District of Kansas, Case No. 2:03CR20148-01-JWL. Id. This
resulted in a total offense level of 32, after Movant received an acceptance of responsibility reduction
under § 3E1.1 (a). Id. at 8. The PSR calculated a criminal history score of 8, yielding a criminal history
category of IV, but the career offender provision required a criminal history category of VI. Id. at 914. Accordingly, the PSR calculated an advisory Sentencing Guidelines range of 210 to 262 months’
imprisonment. Id. at 22.
Defense counsel objected that Movant was not a career offender because he did not have two
prior “controlled substance offenses.” Id. at 25. Defense counsel argued that the Buchanan County
conviction included behavior that was broader than the definition under § 4B 1.2(b). Id. Prior to
sentencing, Movant filed a pro se motion to withdraw his guilty plea, asserting that defense counsel
had told him he would not be a career offender. Crim. Doc. 79.
Movant appeared before this Court for sentencing on December 20, 2018, where he continued
to assert that he was told he would not be a career offender. Crim. Doc. 83; Crim. Doc. 92, pp. 4-5.
The Court noted that the claim was contrary to the record of the plea, where the parties agreed that they
had discussed the probability of Movant being a career offender. Id. at 5-6. Defense counsel noted
that Movant’s prior attorney also had informed Movant that he would be a career offender and that
2
Case 4:19-cv-01043-RK Document 9 Filed 03/16/20 Page 2 of 6

Movant had “fired her because she told him that.” Id. at 12.
This Court denied Movant’s motion to withdraw his guilty plea. Id. at 16-20. This Court then
denied defense counsel’s objection that the Buchanan County conviction was overbroad. Id. at 20-23.
After hearing arguments and considering the statutory sentencing factors under 18 U.S.C. § 3553(a),
this Court imposed a sentence of 228 months on Count One and 120 months on Count Three, to be
served concurrently. Id. at 23-28; Crim. Doc. 85.
Movant appealed, arguing in an Anders brief that he was not a career offender. The Eighth
Circuit enforced the appeal waiver, found no non-frivolous claims, and dismissed the appeal. Crim.
Doc. 94-1; United States v. Wills, 776 F. App’x 380 (2019). Movant now seeks relief under § 2255.
Doc. 1.
II. Standard
Title 28 U.S.C. § 2255 provides that an individual in federal custody may file a motion to
vacate, set aside, or correct his or her sentence. A motion under this statute “is not a substitute for
a direct appeal and is not the proper way to complain about simple trial errors.” Anderson v. United
States, 25 F.3d 704, 706 (8th Cir. 1994) (internal citations omitted). Instead, § 2255 provides a
statutory avenue through which to address constitutional or jurisdictional errors and errors of law
that “constitute[ ] a fundamental defect which inherently results in a complete miscarriage of justice.”
Sun Bear v. United States, 644 F.3d 700, 704 (8th Cir. 2011) (quoting Hill v. United States, 368 U.S.
424, 428(1962)).
III. Discussion
Movant raises the following two grounds for relief in the present proceedings: (1) his prior
state convictions do not meet the “4B1.2(b) enhancements distribution w/ intent in light of 6th Cir.
Court United States v. Havis [927 F.3d 382 (6th Cir. 2019)];” and (2) defense counsel was ineffective
for not having “attacked prior state case for 4B1.2(b)” because it was “over 15 years” and there was
an “error of drug weight never mentioned.” Doc. 1, pp. 4-5. Movant also raised a third claim for relief
under the First Step Act, which this Court severed from the present § 2255 proceedings without
prejudice, subject to the claim being refiled as a separate motion to reduce sentence in the above-cited
criminal case. Id. at 5; Doc. 3. Respondent argues that Ground One is not cognizable and that Ground
Two is without merit. Doc. 4.

3
Case 4:19-cv-01043-RK Document 9 Filed 03/16/20 Page 3 of 6

A. Ground One is not cognizable.
In Ground One, Movant argues that the application of the career offender provision was
erroneous under Havis because

“the word distribution w/ intent does not meet the 4B 1.2(b)

enhancement on prior state crimes.” Doc. 1, p. 4. This claim mirrors the claim Movant raised at
sentencing and on appeal that the Buchanan County conviction is overbroad and cannot serve as a
career offender predicate. Crim. Doc. 67, p. 25.
As set forth in the Eighth Circuit’s direct appeal decision, such challenges fall within the scope
of Movant’s appeal waiver. See Crim. Doc. 94-1. Furthermore, such a challenge is not cognizable in
a § 2255 motion. See Sun Bear, 644 F.3d 704 (“ordinary questions of guideline interpretation falling
short of the ‘miscarriage of justice’ standard do not present a proper Section 2255 claim”). It is wellsettled that claims of “a severer sentence than expected was received after a guilty plea” or “an
excessive sentence when the sentence imposed is within the statutory maximum” are not cognizable.
Houserv. United States, 508 F.2d 509, 516 (8th Cir. 1974). Notably, Movant’s sentence of228 months
is not greater than the statutory range of punishment.
Even if Movant could seek relief under Havis, the Court notes that Havis does not entitle
Movant to relief. In Havis, the Sixth Circuit held that the definition of “controlled substance offense”
in the Sentencing Guidelines did not include attempt crimes. Havis, 927 F.3d at 387. Nevertheless,
Movant’s prior conviction in Buchanan County remains a predicate in light of Eighth Circuit precedent.
See United States v. Thomas, 886 F.3d 1274, 1276-77 (8th Cir. 2018) (possession of a controlled
substance with intent to distribute is a predicate controlled substance offense); Untied States v. Reid,
887 F.3d 434,437 (8th Cir. 2018). Havis does not disturb the precedent in Thomas. Therefore, Ground
One is denied.
B. Ground Two is without merit.
In Ground Two, Movant argues that defense counsel was ineffective for not having “attacked
prior state case for 4B1.2(b)” because it was “over 15 years” and there was an “error of drug weight
never mentioned.” Doc. l,p. 5.
“A guilty plea waives all defects except those that are jurisdictional.” United States v. Todd,
521 F.3d 891, 895 (8th Cir. 2008) (internal quotation omitted); see also Walker v. United States, 115
F.3d 603, 604 (8th Cir. 1997) (“[A] valid guilty plea forecloses an attack on a conviction unless on the
face of the record the court had no power to enter the conviction or impose the sentence.”) (internal
quotation omitted). “When a criminal defendant has solemnly admitted in open court that he is in fact
guilty of the offense with which he is charged, he may not thereafter raise independent claims relating
4
Case 4:19-cv-01043-RK Document 9 Filed 03/16/20 Page 4 of 6

to the deprivation of constitutional rights that occurred prior to the entry of the guilty plea.” Tollett v.
Henderson, 411 U.S. 258, 267 (1973). Instead, such a Movant “may only attack the voluntary and
intelligent character of the guilty plea by showing that the advice he received from counsel was not
within the standards set forth in [McMann v. Richardson, 397 U.S. 759 (1970)].” Id. Statements made
by a defendant in court under oath should not be lightly set aside and “constitute a formidable barrier
in any subsequent collateral proceedings. Solemn declarations in open court carry a strong presumption
of verity.” Blackledge v. Allison, 431 U.S.63, 74 (1977); see also Ingrassia v. Armontrout, 902 F.2d
1368, 1370 (8th Cir. 1990) (representations made during the plea hearing “carry a strong degree of
verity and pose a formidable barrier in any subsequent collateral proceedings”).
“A guilty plea is invalid only if it does not represent a voluntary and intelligent choice among
the alternative courses of action open to the defendant.” Easter v. Norris, 100 F.3d 523, 525 (8th Cir.
1996). Accordingly, “a defendant must have knowledge of the law in relation to the facts.” Id. (citation
omitted). However, “‘[t]he rule that a plea must be intelligently made to be valid does not require that
a plea be vulnerable to later attack if the defendant did not correctly assess every relevant factor
entering into his decision.’” U.S. v. Gomez, 326 F.3d 971, 975 (8th Cir. 2003) (quoting Brady v. United
States, 397 U.S. 742, 757 (1970)).
To establish that counsel was ineffective, Movant must “show that his ‘trial counsel’s
performance was so deficient as to fall below an objective standard of reasonable competence, and
that the deficient performance prejudiced his defense.’” Nave v. Delo, 62 F.3d 1024, 1035 (8th Cir.
1995) (quoting Lawrence v. Armontrout, 961 F.2d 113, 115 (8th Cir. 1992)); see also Strickland v.
Washington, 466 U.S. 668, 687 (1984). To establish prejudice, Movant must show that there is a
“reasonable probability that, but for counsel’s unprofessional errors, the result of the proceeding
would have been different.” Strickland, 466 U.S. at 694. Both prongs of this test must be established
in order to be entitled to § 2255 relief; failure to establish either one of the prongs is fatal to a
claim of ineffective assistance of counsel. Id. at 697.
Here, Movant fails to establish that his plea or sentence is invalid or that counsel was
ineffective under the foregoing standard. Movant personally raised the issue concerning the conviction
being “well over 15 years” during the sentencing hearing. Crim. Doc. 92, pp. 18-19. Movant’s claim
is contradicted by the record, in that Movant was placed on parole on March 27, 1998. Crim. Doc. 67,
p. 10. His parole was revoked, and he was granted parole again on December 7, 2001. Id. The instant
offense was committed on March 19, 2016. Id. at 5. Under U.S.S.G. § 4A1.1, App. N. 1, and §
4A1.2(e)(l), the instant offense was within 15 years ofthe 1994 offense. See § 4A1.1, App. N. 1 (“A
sentence imposed more than fifteen years prior to the defendant’s commencement of the instant offense
5
Case 4:19-cv-01043-RK Document 9 Filed 03/16/20 Page 5 of 6

is not counted unless the defendant’s incarceration extended into this fifteen-year period.”). Movant
similarly fails to meet his burden under any of his other conclusory allegations in Ground Two
regarding drug weight. See Kress v. United States, 411 F.2d 16, 20 (8th Cir. 1969) (“In a § 2255
proceeding, the burden of proof with regard to each ground for relief rests upon the petitioner.”). This
Court would not have sustained any of the objections he raises therein. Consequently, Movant fails to
establish that he was prejudiced by defense counsel’s alleged failures in Ground Two.
Ultimately, none of Movant’s arguments or claims establish that either his plea or sentence are
invalid or were otherwise the result of ineffective assistance of counsel. Rather, the record before this
Court indicates that Movant entered a knowing and voluntary plea and received an appropriate sentence
within the statutory range of punishment. For these reasons and in light of the record before this Court,
Movant’s § 2255 motion is denied.
IV. Certificate of Appealability
Pursuant to Rule 11 of the Rules Governing Section 2255 Proceedings, the Court must issue or
deny a certificate of appealability when it enters a final order adverse to Movant. A certificate of
appealability may be issued “only if [Movant] has made a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2). Because Movant has made no such showing, the Court
declines to issue a certificate of appealability.
V. Conclusion
For the foregoing reasons, this case is reopened; Movant’s motion to vacate, set aside, or
correct sentence pursuant to 28 U.S.C. § 2255 is denied; a certificate of appealability is denied; and
this case is dismissed.
It is so ORDERED.

/s/ Roseann A. Ketchmark
ROSEANN A. KETCHMARK
UNITED STATES DISTRICT JUDGE
Dated: March 16, 2020.

6
Case 4:19-cv-01043-RK Document 9 Filed 03/16/20 Page 6 of 6

